VISA CLASSIC/VISA PLATINUM
CONSUMER CREDIT CARD AGREEMENT
In this Agreement, "Agreement" means this Consumer Credit Card Agreement. "Disclosure" means the Credit
Card Account Opening Disclosure. The Account Opening Disclosure is incorporated into this Consumer Credit
Card Agreement and is part of the Agreement. In this Agreement the words "you," "your," and "yours" mean
each and all of those who agree to be bound by this Agreement; "card" means the Visa credit card and any
duplicates, renewals, or substitutions the Credit Union issues to you; "account" means your Visa credit card
line-of-credit account with the Credit Union; and "Credit Union" means the Credit Union whose name appears on
this Agreement or anyone to whom the Credit Union transfers this Agreement.
1. USING YOUR ACCOUNT -- If you are approved for an account, the Credit Union will establish a line of credit
for you. You agree that your credit limit is the maximum amount (purchases, cash advances, finance charges,
plus "other charges") which you will have outstanding on your account at any time. Unless disclosed otherwise,
the Credit Union will not allow advances over the credit limit. If the Credit Union has a program whereby it allows
payment of advances that exceed your credit limit, subject to a fee, the Credit Union will provide you with notice,
either orally, in writing, or electronically (notwithstanding the requirements of the paragraph entitled "Statements
and Notices") explaining your right to opt in to the Credit Union's program whereby it will honor advance
requests over the credit limit. In the event you opt in to such a program, you agree to the terms of such a
program. You may request an increase in your credit limit only by a method acceptable to the Credit Union. The
Credit Union may increase or decrease your credit limit, refuse to make an advance and/or terminate your account
at any time for any reason not prohibited by law. If you are permitted to obtain cash advances on your account,
we may, from time to time, issue convenience checks to you that may be drawn on your account. Convenience
checks may not be used to make a payment on your account balance. If you use a convenience check, it will be
posted to your account as a cash advance. We reserve the right to refuse to pay a convenience check drawn on
your account for any reason and such refusal shall not constitute wrongful dishonor.
You may request that we stop the payment of a convenience check drawn on your account. You agree to pay
any fee imposed to stop a payment on a convenience check issued on your account. You may make a stop
payment request orally, if permitted, or in writing. Your request must be made with sufficient time in advance of
the presentment of the check for payment to give us a reasonable opportunity to act on your request. In addition,
your request must accurately describe the check including the exact account number, the payee, any check
number that may be applicable, and the exact amount of the check. If permitted, you may make a stop payment
request orally but such a request will expire after 14 days unless you confirm your request in writing within that
time. Written stop payment orders are effective only for six months and may be renewed for additional six month
periods by requesting in writing that the stop payment order be renewed. We are not required to notify you when
a stop payment order expires. If we re-credit your account after paying a check or draft over a valid and timely
stop payment order, you agree to sign a statement describing the dispute with the payee, to assign to us all of
your rights against the payee or other holders of the check or draft and to assist us in any legal action. You agree
to indemnify and hold us harmless from all costs and expenses, including attorney's fees, damages, or claims,
related to our honoring your stop payment request or in failing to stop payment of an item as a result of incorrect
information provided to us or the giving of inadequate time to act upon a stop payment request.
2. USING YOUR CARD -- You understand that the use of your credit card or credit card account will constitute
acknowledgement of receipt and agreement to the terms of the Credit Card Agreement and Credit Card Account
Opening Disclosure (Disclosure). You may use your card to make purchases from merchants and others who
accept your card. The credit union is not responsible for the refusal of any merchant or financial institution to
honor your card. If you wish to pay for goods or services over the Internet, you may be required to provide card
number security information before you will be permitted to complete the transaction. In addition, you may obtain
cash advances from the Credit Union, from other financial institutions that accept your card, and from some
automated teller machines (ATMs). (Not all ATMs accept your card.) If the credit union authorizes ATM
transactions with your card, it will issue you a personal identification number (PIN). To obtain cash advances from
an ATM, you must use the PIN issued to you for use with your card. You agree that you will not use your card
for any transaction that is illegal under applicable federal, state, or local law. Even if you use your card for an
illegal transaction, you will be responsible for all amounts and charges incurred in connection with the
transaction. If you are permitted to obtain cash advances on your account, you may also use your card to
purchase instruments and engage in transactions that we consider the equivalent of cash. Such transactions will
be posted to your account as cash advances and include, but are not limited to, wire transfers and money orders.
This paragraph shall not be interpreted as permitting or authorizing any transaction that is illegal.
3. PROMISE TO PAY -- You promise to pay all charges (purchases, cash advances, balance transfers, use of
convenience checks or any other charge) made to your account by you or anyone you authorize to use your
account. You also promise to pay all finance charges and other charges added to your account under the terms of
this Agreement or another agreement you made with the Credit Union. If this is a joint account, the paragraph on
JOINT ACCOUNTS also applies to your account.

CUNA Mutual Group 1991, 2006, 09, 10, 12, 14 All Rights Reserved

KMIZE0 (MXC503)-e

4. PERIODIC RATES -- The periodic rates applicable to purchases, cash advances, and balance transfers are
disclosed on the Disclosure that accompanies this Agreement. Any penalty rate that may be imposed for failing to
make a payment by the payment due date is also disclosed on the Disclosure. Any rate change will be made
pursuant to applicable law. If the rate for your account is variable, as indicated on the accompanying Disclosure,
the rate charged on purchases, cash advances, balance transfers and any penalty rate will vary periodically as
disclosed in the Disclosure accompanying this Agreement. The initial rate on your account for certain types of
transactions may be an introductory discounted rate (Introductory Rate) that is lower than the rate that would
ordinarily apply for that type of transaction. If an Introductory Rate applies to your account, the rates and the
period of time it will be effective is shown on the Disclosure accompanying this Agreement. After the
Introductory Rate period expires, the periodic rate will automatically increase to the rates that would ordinarily
apply for that type of transaction based on the terms of this Agreement.
5. FINANCE CHARGES -- New purchases posted to your account during a billing cycle will not incur a finance
charge for that billing cycle. Finance charge begins to accrue on those purchases from the first day of the next
billing cycle, unless you paid the entire new balance on the previous cycle's billing statement by the payment due
date of that statement. To avoid an additional finance charge on the balance of purchases, you must pay the
entire new balance on the billing statement by the payment due date of that statement. A finance charge begins
to accrue on cash advances from the date you get the cash advance or from the first day of the billing cycle in
which the cash advance is posted to your account, whichever is later (transaction date).
The finance charge is calculated separately for purchases and cash advances. For purchases, the finance charge
is computed by applying the periodic rate to the average daily balance of purchases. To calculate the average
daily balance of purchases, we take the beginning outstanding balance of purchases each day and subtract any
payments and/or credits that we apply to the purchase balance. (We do not add in any purchases posted during
the billing cycle.) This gives us the daily balance of purchases. We then add all of the daily balances of purchases
for the billing cycle together and divide the total by the number of days in the billing cycle. This gives us the
average daily balance of purchases.
For cash advances, the finance charge is computed by applying the periodic rate to the average daily balance of
cash advances. To calculate the average daily balance of cash advances, we take the beginning outstanding
balance of cash advances each day, add in any new cash advances, and subtract any payments and/or credits
that we apply to the cash advance balance. This gives us the daily balance of cash advances. We then add all of
the daily balances of cash advances for the billing cycle together and divide the total by the number of days in the
billing cycle. This gives us the average daily balance of cash advances. Balance transfers are calculated in the
same manner as cash advances.
6. FOREIGN TRANSACTIONS -- Purchases and cash advances made in foreign currencies will be debited from
your account in U.S. dollars. The exchange rate between the transaction currency and the billing currency used
for processing international transactions is a rate selected by Visa from a range of rates available in wholesale
currency markets for the applicable central processing date, which rate may vary from the rate Visa itself receives
or the government-mandated rate in effect for the applicable central processing date. The exchange rate used on
the processing date may differ from the rate that would have been used on the purchase date or cardholder
statement posting date.
A fee (finance charge), calculated in U.S. dollars, will be imposed on all foreign transactions, including purchases,
cash advances and credits to your account. A foreign transaction is any transaction that you complete or a
merchant completes on your card outside of the United States, with the exception of U.S. military bases, U.S.
territories, U.S. embassies or U.S. consulates. The Foreign Transaction Fee is set forth on the Disclosure
accompanying this Agreement.
7. FEES -- In addition to the periodic rate, the following additional fees may be imposed on your account. If
applicable to your account, the fee amounts and explanations are disclosed on the Disclosure accompanying this
Agreement. Your account may also be subject to additional fees as set forth on the Disclosure accompanying this
Agreement.
a. Cash Advance Fee (Finance Charge). If your account is subject to a Cash Advance Fee (finance charge), the
fee will be charged to your account when you obtain a cash advance from an ATM, the Credit Union or other
financial institution.
b. Foreign Transaction Fee (Finance Charge). If your account is subject to a Foreign Transaction Fee (finance
charge), a fee may be charged to your account for transactions made outside of the United States or in a foreign
currency.
c. Late Payment Fee. If your account is subject to a Late Payment Fee, the fee will be charged to your account
when you do not make the required minimum payment by or within the number of days of the statement Payment
Due Date set forth on the Disclosure accompanying this Agreement.
d. Returned Payment Fee. If your account is subject to a Returned Payment Fee, the fee will be charged to your
account when a payment is returned for any reason.
e. Returned Convenience Check Fee. If your account is subject to a Returned Convenience Check Fee, the fee
will be charged to your account when a convenience check is returned for any reason.
KMIZE0 (MXC503)-e

f. Rush Fee. If your account is subject to a Rush Fee, except as limited by applicable law, a fee may be charged
to your account for each rush card that you request, providing delivery of the card is also available by standard
mail service, without paying a fee for delivery.
g. Pay-by-Phone Fee. If your account is subject to the Pay-by-Phone Fee, a fee will be charged for each time
you make a payment by telephone as disclosed on the Disclosure accompanying this Agreement.
8. PAYMENTS -- Each month you must pay at least the minimum payment shown on your statement by the
date specified on the statement. You may pay more frequently, pay more than the minimum payment or pay the
total new balance in full. If you make extra or larger payments, you are still required to make at least the
minimum payment each month your account has a balance (other than a credit balance). For our Visa Classic
card, the minimum payment is 3.00% of your total new balance, or $25.00, whichever is greater, plus the
amount of any prior minimum payments that you have not made, all outstanding unpaid fees and charges, and
any amount you are over your credit limit by the date specified on the statement. For our Visa Platinum card, the
minimum payment is 3.00% of your total new balance, or $25.00, whichever is greater, plus the amount of any
prior minimum payments that you have not made, all outstanding unpaid fees and charges, and any amount you
are over your credit limit by the date specified on the statement. The Credit Union also has the right to demand
immediate payment of any amount by which you are over your credit limit. In accordance with applicable law,
the Credit Union may not post payments to your account or reflect them in your available credit limit on the date
they are received. The Credit Union may delay replenishing your credit limit until the date the payment is posted
or the Credit Union confirms the payment has cleared.
9. PAYMENT ALLOCATION -- Subject to applicable law, your payments may be applied to what you owe the
Credit Union in any manner the Credit Union chooses. However, in every case, in the event you make a payment
in excess of the required minimum periodic payment, the Credit Union will allocate the excess amount first to the
balance with the highest annual percentage rate and any remaining portion to the other balances in descending
order based on applicable annual percentage rate.
10. SECURITY INTEREST -- You grant the Credit Union a security interest under the Uniform Commercial Code
and under any common law rights the Credit Union may have in any goods you purchase. If you give the Credit
Union a specific pledge of shares by signing a separate pledge of shares, your pledged shares will secure your
account. You may not withdraw amounts that have been specifically pledged to secure your account until the
Credit Union agrees to release all or part of the pledged amount.
Your Account is secured by all other shares you have in any individual or joint account with the Credit Union,
except for shares in an Individual Retirement Account or in any other account that would lose special tax
treatment under state or federal law if given as security. These other shares may be withdrawn unless you are
in default under this agreement. You authorize the Credit Union to apply the balance in your individual or joint
share accounts to pay any amounts due on your Account if you should default.
Collateral securing other loans you have with the Credit Union may also secure this loan, except that a dwelling
will never be considered as security for this account, notwithstanding anything to the contrary in any other
agreement.
11. DEFAULT -- You will be in default if you fail to make any minimum payment or other required payment by
the date that it is due. You will be in default if you break any promise you make under this Agreement. You will
be in default if you die, file for bankruptcy or become insolvent, that is, unable to pay your obligations when
they become due. You will be in default if you make any false or misleading statements in any credit application
or credit update. You will also be in default if something happens that the Credit Union believes may
substantially reduce your ability to repay what you owe.
When you are in default, the Credit Union has the right to demand immediate payment of your full account
balance without giving you notice. If immediate payment is demanded, you agree to continue paying finance
charges at the periodic rate charged before default, until what you owe has been paid, and any shares that were
given as security for your account may be applied towards what you owe.
12. LIABILITY FOR UNAUTHORIZED USE-LOST/STOLEN CARD NOTIFICATION -- You agree to notify us
immediately, orally or in writing, at PO Box 30495, Tampa, FL 33630 or telephone (800) 991-4961 seven days
a week, 24 hours a day or (800) 433-0505 seven days a week, 24 hours a day, of the loss, theft, or
unauthorized use of your credit card. You may be liable for the unauthorized use of your credit card. You will not
be liable for unauthorized use that occurs after you notify us of the loss, theft, or possible unauthorized use. You
will have no liability for unauthorized transactions made with your credit card, unless you are grossly negligent in
the handling of your card. In any case, your liability will not exceed $50.00.
13. CHANGING OR TERMINATING YOUR ACCOUNT -- As permitted by law, the Credit Union may change the
terms of this Agreement and any attached Disclosure from time to time. Notice of any change will be given in
accordance with applicable law. If permitted by law and specified in the notice to you, the change will apply to
your existing account balance as well as to future transactions.
Either you or the Credit Union may terminate this Agreement at any time, but termination by you or the Credit
Union will not affect your obligation to pay the account balance plus any finance and other charges you owe
under this Agreement. Your obligation to pay the account balance plus any finance and other charges you owe
KMIZE0 (MXC503)-e

under this agreement are subject to all applicable laws and regulations regarding repayment requirements. You are
also responsible for all transactions made to your account after termination, unless the transactions were
unauthorized.
The card or cards you receive remain the property of the Credit Union and you must recover and surrender to the
Credit Union all cards upon request or upon termination of this Agreement whether by you or the Credit Union. If
this is a joint account, the paragraph on JOINT ACCOUNTS of this Agreement also applies to termination of the
account.
14. CHANGING OR TERMINATING AUTHORIZED USERS -- Upon your request, we may issue additional cards for
authorized users that you designate. You must notify us in writing of any termination of an authorized user's right
to access your account. Your letter must include the name of the authorized user and your account number
and/or any subaccount number issued to the authorized user along with the authorized user's card and any
convenience or other access checks issued to the authorized user. If you cannot return the authorized user's card
or access checks and if you request your account to be closed, we will close your account and you may apply for
a new account.
15. CREDIT REVIEW AND RELEASE OF INFORMATION -- You authorize the Credit Union to investigate your
credit standing when opening or reviewing your account. You authorize the Credit Union to disclose information
regarding your account to credit bureaus and creditors who inquire about your credit standing. If your account is
eligible for emergency cash and/or emergency card replacement services, and you request such services, you
agree that we may provide personal information about you and your account that is necessary to provide you
with the requested service(s).
16. RETURNS AND ADJUSTMENTS -- Merchants and others who honor your card may give credit for returns or
adjustments, and they will do so by sending the Credit Union a credit slip which will be posted to your account. If
your credits and payments exceed what you owe the Credit Union, the amount will be applied against future
purchases and cash advances. If the credit balance amount is $1.00 or more, it will be refunded upon your
written request or automatically after six months.
17. ADDITIONAL BENEFITS/CARD ENHANCEMENTS -- The Credit Union may from time to time offer additional
services to your account, such as travel accident insurance, at no additional cost to you. You understand that the
Credit Union is not obligated to offer such services and may withdraw or change them at any time.
18. MERCHANT DISPUTES -- The Credit Union is not responsible for the refusal of any merchant or financial
institution to honor your card. The Credit Union is subject to claims and defenses (other than tort claims) arising
out of goods or services you purchase with the card if you have made a good faith attempt but have been unable
to obtain satisfaction from the merchant or service provider, and (a) your purchase was made in response to an
advertisement the Credit Union sent or participated in sending to you; or (b) your purchase cost more than
$50.00 and was made in your state or within 100 miles of your home.
19. JOINT ACCOUNTS -- If this is a joint account, each of you will be individually and jointly responsible for
paying all amounts owed under this Agreement. This means that the Credit Union can require any one of you
individually to repay the entire amount owed under this Agreement. Each of you authorizes the other(s) to make
purchases or cash advances individually. Any one of you may terminate the account and the termination will be
effective as to all of you.
20. EFFECT OF AGREEMENT -- This Agreement is the contract which applies to all transactions on your account
even though the sales, cash advances, credit or other slips you sign or receive may contain different terms.
21. NO WAIVER -- The Credit Union can delay enforcing any of its rights any number of times without losing
them.
22. STATEMENTS AND NOTICES -- Statements and notices will be mailed or delivered to you at the appropriate
address you have given the Credit Union. Notice sent to any one of you will be considered notice to all.
23. SEVERABILITY AND FINAL EXPRESSION -- This Agreement and the Disclosure are the final expression of the
terms and conditions of your account. This written Agreement and Disclosure may not be contradicted by
evidence of any alleged oral agreement. Should any part of this Agreement or the Disclosure be found to be
invalid or unenforceable, all other parts of this Agreement and Disclosure shall remain in effect and fully
enforceable to the fullest extent possible under this Agreement.
24. COPY RECEIVED -- You acknowledge that you have received a copy of this Agreement and Disclosure.
25. GAMBLING TRANSACTIONS PROHIBITED -- You may not use your card to initiate any type of gambling
transaction.
26. PENALTY RATE DISCLOSURES -- If applicable to your account, all rates for your account, including the
rates for purchases, cash advances, and balance transfers, will increase to the Penalty Rate when you meet one
or more of the conditions as set forth in the Disclosure accompanying this Agreement. Any rate increases applied
to your account are subject to applicable notice requirements. Please refer to the Disclosure for additional
information regarding the Penalty Rate.
KMIZE0 (MXC503)-e

27. NOTICE TO UTAH BORROWERS -- This written agreement is a final expression of the agreement between
you and the Credit Union. This written agreement may not be contradicted by evidence of any oral agreement.
28. THE FOLLOWING IS REQUIRED BY VERMONT LAW -- NOTICE TO CO-SIGNER -- YOUR SIGNATURE ON
THIS NOTE MEANS THAT YOU ARE EQUALLY LIABLE FOR REPAYMENT OF THIS LOAN. IF THE BORROWER
DOES NOT PAY, THE LENDER HAS A LEGAL RIGHT TO COLLECT FROM YOU.
Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the address listed on your statement.
In your letter, give us the following information:
- Account information: Your name and account number.
- Dollar amount: The dollar amount of the suspected error.
- Description of problem: If you think there is an error on your bill, describe what you believe is wrong and
why you believe it is a mistake.
You must contact us:
- Within 60 days after the error appeared on your statement.
- At least 3 business days before an automated payment is scheduled, if you want to stop payment on the
amount you think is wrong.
You must notify us of any potential errors in writing or electronically. You may call us, but if you do we are not
required to investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell
you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we
believe the bill is correct.
While we investigate whether or not there has been an error:
- We cannot try to collect the amount in question, or report you as delinquent on that amount.
- The charge in question may remain on your statement, and we may continue to charge you interest on
that amount.
- While you do not have to pay the amount in question, you are responsible for the remainder of your
balance.
- We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
- If we made a mistake: You will not have to pay the amount in question or any interest or other fees
related to that amount.
- If we do not believe there was a mistake: You will have to pay the amount in question, along with
applicable interest and fees. We will send you a statement of the amount you owe and the date payment
is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us
that you still refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are
questioning your bill. We must tell you the name of anyone to whom we reported you as delinquent, and we
must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even
if your bill is correct.
Your Rights if You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have
tried in good faith to correct the problem with the merchant, you may have the right not to pay the remaining
amount due on the purchase.

KMIZE0 (MXC503)-e

To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing
address, and the purchase price must have been more than $50. (Note: Neither of these are necessary if
your purchase was based on an advertisement we mailed to you, or if we own the company that sold
you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an
ATM or with a check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing or
electronically at the address listed on your statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our
investigation, we will tell you our decision. At that point, if we think you owe an amount and you do not pay, we
may report you as delinquent.

KMIZE0 (MXC503)-e

